S'

/\pf£NOiX A

t

(1 or ()

Case: 18-55042, 11/16/2020, ID: 11893737, DktEntry: 65-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
NOV 16 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
GREGORY MOORE, individually, and on
behalf of J.M.,

U.S. COURT OF APPEALS

No. 18-55042
D.C. No. 8:13-cv-01346-JLS-AN

Plaintiff-Appellant,
v.

MEMORANDUM*

COUNTY OF ORANGE; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Josephine L. Staton, District Judge, Presiding
Submitted November 9, 2020**
Before: THOMAS, Chief Judge, TASHIMA and W. FLETCHER, Circuit Judges.
Gregory Moore appeals pro se from the district court’s judgment dismissing
his 42 U.S.C. § 1983 action arising from the placement of his child J.M. into foster
care. We have jurisdiction under 28 U.S.C. § 1291. We review de novo a
dismissal on the basis of res judicata. Mpoyo v. Litton Electro-Optical Sys., 430

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without .oraLargument._5,ee_Eed.-R.-App.-E.-34(a)(2)_____________________

(Z OT ()

Case: 18-55042, 11/16/2020, ID: 11893737, DktEntry: 65-1, Page 2 of 3

F.3d 985, 987 (9th Cir. 2005). We affirm.
The district court properly dismissed Moore’s action as barred by the
doctrine of res judicata because Moore has previously litigated the same claim in a
California state court proceeding against the same parties or their privies. See
Manufactured Home Cmtys. Inc. v. City ofSan Jose, 420 F.3d 1022, 1031 (9th Cir.
2005) (“To determine the preclusive effect of a state court judgment federal courts
look to state law. . . . California’s res judicata doctrine is based on a primary rights
theory.” (citation omitted)); In re Estate ofDito, 130 Cal. Rptr. 3d 279, 286 (Ct.
App. 2011) (“Under the doctrine of res judicata, all claims based on the same cause
of action must be decided in a single suit; if not brought initially, they may not be
raised at a later date.” (citation and internal quotation marks omitted)).
Contrary to Moore’s contention that res judicata does not apply because
defendants obtained their state court judgment through extrinsic fraud, Moore
failed to allege plausibly how he was prevented from presenting his claims in state
court. See Kougasian v. TMSL, Inc., 359 F.3d 1136, 1140 (9th Cir. 2004) (setting
forth what constitutes extrinsic fraud).
The district court did not abuse its discretion in denying Moore leave to
amend his complaint because any amendment would have been futile. See
Cervantes v. Countrywide Home Loans, Inc., 656 F.3d 1034, 1041 (9th Cir. 2011)
(setting forth standard of review and stating that leave to amend may be denied

2

18-55042

Ot ()

Case: 18-55042, 11/16/2020, ID: 11893737, DktEntry: 65-1, Page 3 of 3

where amendment would be futile).
The district court did not abuse its discretion by denying Moore’s post­
judgment motion for reconsideration because Moore failed to demonstrate any
basis for relief from the judgment. See Sch. Dist. No. 1J, Multnomah Cty., Or. v.
ACandS, Inc., 5 F.3d 1255, 1262-63 (9th Cir. 1993) (setting forth standard of
review and grounds for relief under Federal Rule of Civil Procedure 60).
We reject as without merit Moore’s contentions that the district court erred
in denying Moore a continuance for oral argument regarding defendants’ motion to
dismiss and in lifting the stay on the district court’s proceedings.
All pending motions are denied.
AFFIRMED.

3

18-55042

r

/\MCn<> *x

c

Case: 18-55042, 03/03/2021, ID: 12023566, DktEntry: 67, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 3 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GREGORY MOORE, individually, and on
behalf of J.M.,
Plaintiff-Appellant,

No. 18-55042
D.C.No. 8:13-cv-01346-JLS-AN
Central District of California,
Santa Ana

v.

ORDER
COUNTY OF ORANGE; et al.,
Defendants-Appellees.
Before: THOMAS, Chief Judge, TASHIMA and W. FLETCHER, Circuit Judges.
The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Moore’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 66) are denied.
No further filings will be entertained in this closed case.

Case: 18-55042, 03/11/2021, ID: 12031812, DktEntry: 68, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
MAR 11 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GREGORY MOORE, individually, and
on behalf of J.M.,
Plaintiff - Appellant,
v.
COUNTY OF ORANGE; et al.,

No. 18-55042
D.C.No. 8:13-cv-01346-JLS-AN
U.S. District Court for Central
California, Santa Ana
MANDATE

Defendants - Appellees.

The judgment of this Court, entered November 16, 2020, takes effect this
date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Jessica Flores
Deputy Clerk
Ninth Circuit Rule 27-7

./•
Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 1 of 9 Page ID #:396

JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.

Date: October 13, 2017

Present: Honorable JOSEPHINE L. STATON. UNITED STATES DISTRICT JUDGE
Terry Guerrero
Deputy Clerk
ATTORNEYS PRESENT FOR PLAINTIFF:
Not Present

N/A
Court Reporter
ATTORNEYS PRESENT FOR DEFENDANT:
Not Present

PROCEEDINGS: (IN CHAMBERS) ORDER GRANTING DEFENDANTS’
MOTION TO DISMISS (Doc. 28)
Before the Court is a motion to dismiss filed by Defendants County of Orange,
Orange County Social Services Agency, Stacey Metcalf, Lauri Luchonok, Carole Butzke,
and Dang Vu (“Defendants”). (Mot., Doc. 28.)' Plaintiffs J.M. and Gregory Moore
(“Plaintiffs”) opposed the motion,2 and Defendants replied. (Opp., Doc. 31; Reply, Doc.
33.) Having held a hearing3 and considered the papers, the Court GRANTS the Motion.

i

According to Defendants, County of Orange was erroneously sued as Orange County
Social Services Agency.
2 Plaintiffs’ opposition brief was untimely filed without explanation or good cause.
While this failure to follow the local rules is sufficient to constitute consent to the granting of the
motion, the Court exercises its discretion to decide the motion on its merits.
3 Plaintiffs’ counsel did not appear at the hearing, nor had he provided a stipulation or
request for a continuance prior to the hearing. The Court took the matter under submission and
-indicated that it would make its rul ing based on the papers.
---- --------------------CIVIL MINUTES - GENERAL

1

Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 2 of 9 Page ID #:397

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.
I.

Date: October 13, 2017

Background
A.

Present Action

In this action, Plaintiffs assert a single claim for violation of civil rights under 42
U.S.C. § 1983. (Compl., Doc. 1.) Specifically, Plaintiffs allege that on or about January
10, 2010, Plaintiff J.M.’s mother took J.M. to a hospital and claimed that Plaintiff Moore,
J.M.’s father, had abused J.M. (Id. 112.) A doctor at the hospital contacted Orange
County Social Services Agency (“Social Services”), which took the child into custody
and initiated dependency proceedings. (Id. Tj 14.) Moore requested J.M. be kept in his
custody. (Id. 117.) Social Services objected to the request, and on May 5, 2010, the trial
court maintained J.M. in foster care. (Id.) Moore successfully appealed the ruling, and
on August 30, 2011, Moore was awarded sole custody of J.M. (Id.) Moore alleges that
his and his son’s constitutional rights were violated because J.M. was placed in foster
custody for eighteen months. (Id.)
On January 8, 2014, the Court abstained from hearing this action and stayed the
matter pending resolution of the state action discussed below. (See Stay Order, Doc. 18.)
Following receipt of the parties’ supplemental joint status report informing the Court that
the state court action had concluded in favor of Defendants, the Court issued an Order to
Show Cause why this case should not be dismissed. (Status Report, Doc. 24; Order to
Show Cause, Doc. 25.) The Court noted the “substantial similarity between the instant
action and the recently concluded state court action.” (Order to Show Cause, Doc. 25.)
Following an opposition filed by Plaintiffs to the Order to Show Cause, the Court
discharged the Order, lifted the stay, and directed Defendants to either file a renewed
motion to dismiss or otherwise respond to the complaint. (Opp., Doc. 26; Order Lifting
Stay, Doc. 27.) This briefing followed.

CIVIL MINUTES - GENERAL

2

Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 3 of 9 Page ID #:398

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.
B.

Date: October 13, 2017

State Action

On May 20, 2011, Plaintiffs filed an action in state court (“State Action”) against
Defendants and against Karen Cianfari, Law Offices of Harold La Flamme, and Teena
Honstetter, for (1) “Monell Related Claims” that allege a violation of Plaintiffs’
Fourteenth Amendment rights, (2) violation of Plaintiffs’ civil rights under the California
Constitution, and (3) intentional infliction of emotional distress. (Def. Second RJN Ex. A
(“State Action Docket”), Doc. 16); Gregory Moore v. County of Orange, Orange County
Superior Court No. 30-201100476941, Docket No. 1 (“State Action Complaint”).4 The
“Monell Related Claim” does not mention section 1983 and is brought against County of
Orange and Social Services only.
On July 3, 2013, following motions to compel, motions to strike, a motion for
summary judgment, dismissal of some parties, and several continuances of the trial date,
Plaintiffs filed a motion for leave to amend their complaint. (State Action Docket No.
194.) Plaintiffs requested leave to add a claim under section 1983 for violation of the
Fourteenth Amendment and include individual defendants Stacey Metcalf, Lauri
Luchonok, Carol Butzke and Dang Vu in the claim, on the basis that their “Monell
Related Claim[]” against County of Orange and Social Services for violation of the
Fourteenth Amendment was insufficient. (See id.)5 The defendants in the State Action
opposed the motion on procedural grounds, arguing that Plaintiffs failed to show good
cause as to why the complaint should be amended so far into the proceedings, and that
the amendment would prejudice the individual defendants in the State Action. (See State

4 The Court takes judicial notice of the State Action docket and the cited filings from the State
Action. Some of the additional parties not named in this action have since been dismissed from
the State Action.
5 The operative pleading does not formally allege a cause of action under 42 U.S.C. § 1983.
(RJN Ex. B, Doc. 29-1 at 32.) However, Plaintiffs have asserted in pleadings before this Court
that the “Monell Related Claim[]” in the State Action is actually brought under 42 U.S.C. § 1983.
(Opp to Mot. to Dismiss, Doc. 14 at 3.)
---—
—
------ —
CIVIL MINUTES - GENERAL

3

Case 8:13-CV-01346-JLS-AN Document 35 Filed 10/13/17 Page 4 of 9 Page ID #:399

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.

Date: October 13, 2017

Action Docket No. 197 at 6.) On July 29, 2013, the state court denied the motion after
hearing oral argument. (See State Action Docket No. 199.)
On August 30, 2013, Plaintiffs lodged their Complaint in this action. (Doc. 1-1.)
The Complaint contains only one cause of action, for violation of Plaintiffs’ Fourteenth
Amendment rights pursuant to 28 U.S.C. § 1983. The claim is made against County of
Orange, Social Services, and the individual defendants that were included in Plaintiffs’
motion for leave to amend in the State Action. The allegations in the Complaint are
identical or nearly identical to many of those in State Action Complaint. (Compare
Complaint
12-24 with State Action Complaint 26-37, 41-42.)6
Following a jury trial, the jury found in favor of Defendants and against Plaintiffs.
(See RJN Ex. C, Doc. 29-1 at 38.) Plaintiffs appealed to the California Court of Appeal,
which affirmed the trial court judgment. (Id. Ex E, Doc. 29-1 at 51.) The Appeals Court
noted that at trial, “[t]he jury found that the social workers had not acted outrageously,. .
. the county had no official custom of allowing its social workers to provide either
perjured evidence to the juvenile court or of failing to provide exculpatory evidence,. ..
[and] the county had an adequate training program to prevent such abuses.” (Id. at 53.)
Plaintiffs’ petition for review by the Supreme Court of California was denied. (Id. at 68.)
Plaintiffs assert that they have filed a writ of certiorari with the United States Supreme
Court. (Opp. at 25.)

6 The Section 1983 claim in the Complaint contains additional allegations with respect to the
individual Defendants that are not present in the State Court Action Complaint. The State Court
Action alleges that the County Defendants had a policy, procedure, custom, or practice that led to
the deprivation of Plaintiffs’ constitutional rights and that they acted with deliberate indifference
in failing to train their agents. State civil rights claims were brought against the individual
Defendants based on the same set of facts that form the basis of Plaintiffs’ federal claims. The
Complaint alleges that the County Defendants are vicariously liable for the allegedly unlawful
actions taken by the individual Defendants.
CIVIL MINUTES - GENERAL

4

Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 5 of 9 Page ID #:400

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.
II.

Date: October 13, 2017

Legal Standard

In deciding a motion to dismiss under Rule 12(b)(6), courts must accept as true all
“well-pleaded factual allegations” in a complaint. Ashcroft v. Iqbal, 556 U.S. 662, 679
(2009). Furthermore, courts must draw all reasonable inferences in the light most
favorable to the non-moving party. See Daniels-Hall v. Nat 7 Educ. Ass ’n, 629 F.3d 992,
998 (9th Cir. 2010). However, “courts ‘are not bound to accept as true a legal conclusion
couched as a factual allegation.’” BellAtl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(quoting Papasan v. Allairt, 478 U.S. 265, 286 (1986)).
III.

Discussion

Defendants move to dismiss the Complaint on several grounds. (Mot. 7-16.) For
the following reasons, the Court finds that res judicata bars this action and therefore does
not reach Defendants’ other asserted grounds for dismissal.7
“A federal court is required under 28 U.S.C. § 1738 to look to the preclusion law
of the state court that rendered the earlier judgment or judgments to determine whether
subsequent federal litigation is precluded.” Kougasian v. TMSL, Inc., 359 F.3d 1136,
1143 (9th Cir. 2004). Under California law, “[r]es judicata or claim preclusion precludes
the relitigation of a cause of action that previously was adjudicated in another proceeding
between the same parties or parties in privity with them.” Fed’n ofHillside and Canyon
Assocs. v. City ofL.A., 126 Cal. App. 4th 1180, 1202 (2004). “Res judicata applies if
(1) the decision in the prior proceeding is final and on the merits; (2) the present
proceeding is on the same cause of action as the prior proceeding; and (3) the parties in
the present proceeding or parties in privity with them were parties to the prior
7 Although Plaintiffs’ Complaint does not plead an injury based on the state court
judgment, their Opposition papers allude to such injuries (see, e.g., Opp. at 6-10). The Court
notes that such alleged injuries, even if set forth in the Complaint, would not be cognizable under
the Rooker-Eeldman doctrine.----------—------------——
CIVIL MINUTES - GENERAL

5

Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 6 of 9 PagelD#:401

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.

Date: October 13, 2017

proceeding.” Id. “Res judicata bars the litigation not only of issues that were actually
litigated but also issues that could have been litigated.” Id.
First, the decision in the state proceeding is final and on the merits. California law
states “that the finality required to invoke the preclusive bar of res judicata is not
achieved until an appeal from the trial court judgment has been exhausted.” Merritt v.
City ofSunnyvale, 2016 WL 8716247 at (N.D Cal. Sept. 16. 2016) (quoting Franklin &
Franklin v. 7-Eleven Owners for Fair Franchising, 85 Cal. App. 4th 1168, 1174 (2000)).
Plaintiffs have exhausted their state appeals, and their claims were decided following a
multi-week jury trial. (RJN Ex C, Doc. 29-1 at 53.) Therefore, the first element of res
judicata is met.
Second, the present proceeding involves the same cause of action as the state
proceeding. Under California law, “[t]wo proceedings are on the same cause of action if
they are based on the same ‘primary right.’” Fed’n ofHillside and Canyon Assocs., 126
Cal. App. 4th at 1202 (citation omitted). “The plaintiffs primary right is the right to be
free from a particular injury, regardless of the legal theory on which liability for the
injury is based.” Id. (citation omitted). “The scope of the primary right therefore
depends on how the injury is defined. A cause of action comprises the plaintiffs primary
right, the defendant's corresponding primary duty, and the defendant’s wrongful act in
breach of that duty.” Id. “An injury is defined in part by reference to the set of facts, or
transaction, from which the injury arose.” Id. at 1203. “The most salient characteristic of
a primary right is that it is indivisible: the violation of but a single primary right gives rise
to a single cause of action.” Crowley v. Katleman, 8 Cal. 4th 666, 681 (1994) (quoting
Slater v. Blackwood, 15 Cal. 3d 791, 795 (1975)). Thus, even if the “plaintiff pleads
different theories of recovery, seeks different forms of relief and/or adds new facts
supporting recovery” in a subsequent action, “the same primary right is [still] at stake” as
long as the “two actions involve the same injury to the plaintiff and the same wrong by
the defendant.” San Diego Police Officers Ass ’n v. San Diego City Employees
Retirement Sys., 568 F.3d 725, 734 (9th Cir. 2009) (quoting Eichman v. Fotomat Corp.,
.147 Cal. App. 3d 1170,117441983)).
_______
CIVIL MINUTES - GENERAL

6

Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 7 of 9 Page ID #:402

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.

Date: October 13, 2017

As the Court has noted, the claims in Plaintiffs’ federal complaint are identical or
nearly identical to those brought and adjudicated in state court. In both complaints,
Plaintiffs assert violations of their Fourteenth Amendment rights to privacy and familial
association. (Complaint ^21, 29-30; State Action Complaint 36, 43.) Further, the
two complaints recite identical or nearly identical versions of the facts. Plaintiffs plead
their injuries as follows:
• Defendants “took every action to deprive GREGORY of the care, custody, and
control of JM” (Compl. ^ 16; State Action Compl. ^ 30);
• Defendants “violate[d] the civil rights of the Plaintiffs . . . by, but not limited to
removing, detaining, and continuing to detain, Plaintiff J.M. from the care,
custody and control of their father, Plaintiff GREGORY, without proper or just
cause and/or authority . . . maliciously falsifying evidence, manipulating evidence,
and presented fabricated evidence to the court, and maliciously refusing to provide
exculpatory evidence during the pendency of the dependency
proceedings,’’(Compl. 28); the individual Defendants engaged in conduct
including “unlawfully removing, detaining, and continuing to detain JM from his
father’s home; maliciously failing to provide exculpatory evidence; maliciously
failing to properly monitor JM while he resided in foster care; and falsely and
maliciously alleged and reporting GREGORY’S failure to abide by the terms and
conditions of court orders and service plans” (State Action Compl. f 55);
• Defendants caused Plaintiffs to “suffer . .. physical, mental, and emotional
injury” (Compl. ^ 30); “Plaintiffs suffer extreme emotional and physical distress.”
(State Action Compl. ^ 59)
Thus, “the same primary right is at stake” in both actions, and they involve the same
injury to the plaintiff—his son being removed from his custody—and the same wrongs
by the defendant. See San Diego Police Officers Ass ’n, 568 F.3d at 734.
Plaintiffs argue that the state trial court’s denial of leave to file an amended
•eomplaint-means-thaFclaims-in-the-Complcrint'werenotTullylitigatedras'theirsectionCIVIL MINUTES - GENERAL

7

Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 8 of 9 Page ID #:403

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.

Date: October 13, 2017

1983 claims against individual Defendants were not included in the state proceeding.
(Opp. at 6.) However, the Supreme Court has expressly rejected an attempt to distinguish
claim and issue preclusion for section 1983 suits, and has held that the general rule that
claims are also precluded when they “could have been litigated in [a] state-court
proceeding” but were not. Migra v. Warren City School Dist. Bd. ofEduc., 465 U.S. 75,
83 (1984). Moreover, California courts have barred section 1983 claims brought in
federal court based on litigation of non-section 1983 claims in state court, so long as the
same primary right is involved. See, e.g., Takahashi v. Board of Trustees ofLivingston
Union School Dist., 783 F.2d 848, 851 (9th Cir.); City ofLos Angeles v. Superior Court,
85 Cal. App. 3d 143, 155 (1978). The Court’s inquiry for this prong of the test, therefore,
is not whether the section 1983 claims against the Defendants were fully litigated, but
whether the same primary right was at stake. Having concluded that the same primary
right was at issue in both proceedings, the Court finds that the second prong of the res
judicata test is met.
Finally, it is undisputed that the parties in the present proceeding were parties to
the prior state court proceeding. Although section 1983 claims were not brought against
the individual Defendants, the underlying allegations pleaded as section 1983 claims in
this complaint were included in the state action as proof of violations of California civil
rights law and of intentional infliction of emotional distress. (State Action Compl. 4560.) The same primary right was implicated as to the injury caused by the individual
Defendants, and those allegations were litigated on the merits. Thus, the Court concludes
that the third requirement for res judicata is met as to all defendants.
Accordingly, Plaintiffs’ claims are barred by res judicata. The Court therefore
finds that amendment would be futile as to these claims. See Huggins v. Hynes, 117 Fed.
App’x 517, 518 (9th Cir. 2004) (finding that “[t]he district court properly denied . . .
leave to amend because [the] proposed amendment was futile due to res judicata.” (citing
Johnson v. Buckley, 356 F.3d 1067, 1077 (9th Cir. 2004)).

CIVIL MINUTES - GENERAL

8

Case 8:13-cv-01346-JLS-AN Document 35 Filed 10/13/17 Page 9 of 9 Page ID #:404

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SACV 13-1346-JLS (ANx)
Title: J.M. et al. v. County of Orange et al.
IV.

Date: October 13, 2017

Conclusion

For the reasons stated above, the Court GRANTS Defendants’ Motion to Dismiss,
and, the complaint is DISMISSED WITH PREJUDICE.
Initials of preparer: tg

CIVIL MINUTES - GENERAL

9

